AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Confirmatory Bioassay Testing at
 Selected Sites




 DOE/IG-0773                              August 2007
                            Department of Energy
                                 Washington, DC 20585



                                August       17, 2007


MEMORANDUM FOR

FROM:
                         Inspector General

S UBJ ECT:               INFORMATION: Audit Report on "Confirmatory Bioassay
                         Testing at Selected Sites"


BACKGROUND

The Department of Energy maintains a significant inventory of radioactive substances at
facilities throughout the United States. To help ensure the safety of its workforce, the
Department established a two-tiered approach to biological or "bioassay" testing of
workers to determine whether and to what extent they may have absorbed radioactive
material. The more intense process mandates biological testing and applies to the
relatively few workers with significant exposure risk. When significant exposures are not
expected - the situation at most sites and upon which this audit focused - the
Department's contractors are required to develop a program to ensure that controls are
effective in reducing exposures to radioactive substances. Specific components of the
program are left to the discretion of the contractor. However, most rely on continuous air
monitoring, radiological surveys, and confimlatory bioassay testing.

Prior Office of Inspector General reviews have identified problems regarding the cost-
effectiveness and efficiency of the Department's bioassay monitoring program. Given the
current emphasis on worker safety and the obvious dangers posed by excessive radiation
exposure, we initiated this audit to determine whether contractor-developed bioassay
programs were effectively administered.


RESULTS OF AUDlT

At selected sites, the confirmatory bioassay component of contractor-developed programs
to monitor the effectiveness of radiological engineering and administrative controls was
not functioning as intended. Specifically, our randomly selected samples revealed that:

        At the Oak Ridge National Laboratory, 16 of the 24 (about 67 percent) of the
        workers we sampled who regularly accessed radiological areas did not receive all
        scheduled tests, were either not tested at the prescribed frequency or were not
        tested for all of the radioactive isotopes to which they may have been exposed;
                ~ t percent (9 of 34) of the radiological workers at the East Tennessee
        A b o ~ 20
        Technology Park were not tested at the frequency prescribed for all of the
        isotopes to which they may have been exposed; and,

        For over 20 percent (7 of 30) of the employees at the Nevada Test Site (N'TS),
        required documentation could not be provided indicating whether or not they
        were properly enrolled into the bioassay program. We also identified individuals
        at NTS that had either never been selected for testing despite being enrolled in
        the program or who were enrolled in the program but not tested as required.

Further, we concluded that site-level safeguards for the bioassay component of the
contractor-developed monitoring program were inadequate and that Federal reviews by
the Department were not always sufficient.

In contrast to the confirmatory bioassay program administration issues we identified, our
audit revealed that individuals were being tested in accordance with site-level procedures
at the Y- 12 National Security Complex and the Savannah River Site. Further, to the
Department's credit, we noted that sites have developed radiation protection programs for
bioassay monitoring and that many of the laboratories and analysis procedures were
accredited under the Department of Energy Laboratory Accreditation Program.

While these actions are noteworthy, without an improvement in the control process over
personnel monitoring, Department and contractor en~ployeesmay be at risk for
occupational exposures to radioactive material that might not be detected. As our audit
demonstrated, opportunities exist to improve the reliability and effectiveness of the
confirrnatory bioassay process employed by contractors. In that connection, we made
several recommendations designed to ensure that monitoring and testing for radiological
workers is appropriate.

We also noted other matters for consideration (described in Appendix 1) pertaining to
costs associated with providing bioassay services. In particular, we observed that the
sites had not fully embraced cost reduction-related recommendations made in our report
on 111-Vitro Bioassq Services at Department of Enera>Facilities (DOEIIG-0458,
February 2000).


MANAGEMENT REACTION

The National Nuclear Security Administration (NNSA), as well as, the Offices of Science
(Science) and Environmental Management (EM) provided comments on the report. The
NNSA generally agreed with the report and concurred with the recommendations.
Science and EM indicated that they would work with contractors to assure that local
testing regimens are clearly stated and are being accomplished, however, they did not
concur with the recommendations. Those offices noted that Federal regulation does not
specifically require bioassay testing and that they would not compel employees to comply
with contractor-established testing programs that were designed to help ensure the
effectiveness of radiological controls if the employee chose not to do so. They based
their position on the view that bioassay testing is a lagging indicator and that air
monitoring, combined with radiation and contamination surveys, are the preferred options
for verifying the effectiveness of protective controls.

While the Office of Inspector General recognizes that bioassay testing for the class of
individuals examined in this report was not specifically required by regulation, neither
are air monitoring and radiation surveys. Rather, contractors are required to develop a
program, based on site-level work environments, to verify that workers are adequately
protected. Our review focused on whether the confirmatory bioassay testing component
of contractor-developed protection programs - a component sanctioned and funded by
the Department for many years at considerable cost - was functioning as intended. We
found that it was not at the sites identified in the report. Management's comments are
included in their entirety as Appendix 4.

Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Acting Under Secretary of Energy
      Under Secretary for Science
      Chief of Staff
REPORT ON CONFIRMATORY BIOASSAY TESTING AT
SELECTED SITES

TABLE OF
CONTENTS

              Confirmatory Bioassay Testinq

              1 . Details of Finding ..............................................................1

              2. Recommendations and Comments ....................................8



              Appendices

              1 . Other Matters for Consideration .....................................1 1

              2. Objective, Scope, and Methodology ...............................13

              3. Prior Reports ................................................................. 1 5

              4. Management Comments .................................................. 16
CONFIRMATORY BIOASSAY TESTING

Background         The Code of Federal Regulations requires biological testing
                   and monitoring as part of a program to protect individuals
                   from the harmful effects of radiation. Department of
                   Energy (Department) regulations specify that site
                   contractors must develop their own method to verify that
                   radiological engineering and administrative controls are
                   effective in preventing radiation exposure. Contractors are
                   permitted to take actions such as performing air
                   monitoring, conducting radiation and contamination
                   surveys, and using bioassay monitoring to confirm the
                   effectiveness of such controls. At each of the sites we
                   reviewed, contractors had elected to use confirmatory
                   bioassay testing as a part of their protective program and
                   had developed site-level procedures outlining testing
                   requirements. As part of their program, contractors
                   describe specific isotopes to which an individual may be
                   exposed and for which testing is required by preparing
                   Radiological Work Permits (Work Permit) that govern the
                   conduct of operations for each work areahask. Workers are
                   required to "sign-in" on the Work Permit each time they
                   enter the radiological area.

Bioassay Program   Our review found that the Department's site contractors
Administration     had not ensurcd that all personnel that had regular access to
                   radiological areas were being monitored in accordance with
                   established site-level requirements. In particular, testing
                   and methods used to track potential exposures did not
                   conform to contractor-developed procedures.

                                        Monitorinp Issues

                   Although each of the sites visited had developed and
                   implemented monitoring programs designed to protect
                   workers, we identified problems with the timing and
                   sufficiency of tests and the maintenance of work history
                   and potential exposure records. While sites recognized the
                   potential health consequences associated with exposure to
                   radioactive material, we noted that some workers were not
                   tested at the frequency prescribed by the site and others
                   were not tested for all the potential hazards to which they
                   may have been exposed. For example:

                      At Oak Ridge National Laboratory (ORNL), over 65
                      percent (16 of 24) of the employees in our sample were
                      not tested in accordance with the site's monitoring
                      requirements. While certain individuals were not tested
                      because of database deficiencies, the majority had not


Page 1                                                    Details of Finding
         submitted to testing as scheduled despite being notified
         of the requirement. Cancelled or missed appointments
         were supposed to be rescheduled through the bioassay
         system; however, rescheduled appointments were often
         delayed or missed. For example, one individual only
         met two of seven required tests over a 14-month period.
         During this time period, the individual worked in areas
         where she was potentially exposed to isotopes such as
         iodine- 13 1, which may increase a person's risk for
         developing thyroid cancer. Although this particular
         individual did obtain some whole body radiation
         screenings (referred to as "counts") on a bi-monthly
         basis, she cancelled 29 of 3 1 scheduled appointments
         for bioassay testing over a 14-month period. According
         to a site official, this individual indicated that she did
         not submit to testing because she believed, based on her
         knowledge as a scientist, that the frequency of testing
         was unnecessary.

         In addition, we also found instances where individuals
         - even  though they had been tested for certain
         constituents - were not tested for all of the isotopes to
         which they may have been exposed. For example, an
         individual was to be tested on a quarterly basis,
         beginning in April 2004, for technetium-99 (TC-991,
         which is excreted rapidly from the body. In 2004, three
         appointments for this test were scheduled, all of which
         were cancelled. Because of the rapid excretion of TC-
         99, a late make-up test may not be sufficient to detect
         exposure. This individual continued to work in
         radiological areas where TC-99 was identified as an
         isotope of interest throughout 2004 and part of 2005.

         Our ability to determine the full extent that
         appointments were not kept - and the site's ability to
         monitor the performance of its workforce in that regard
         - was hampered by record keeping problems. For

         example, a bioassay official routinely changed status
         records for appointments from "unmet" to "cancelled"
         without maintaining supporting information. This
         matter came to our attention when site officials
         provided listings that were inconsistent with previously
         provided data. The employee responsible for the
         changes stated that he made them to "clean up the
         system." Additionally, it was noted that certain controls
         built into the system could be easily circumvented by



Page 2                                       Details of   ind ding
         inserting codes that could allow officials to skip
         entering information critical to identifying radiological
         intakes.

         Similarly, at the East Tennessee Technology Park
         (ETTP), over 20 percent (9 of 34) of employees in our
         sample were not tested for isotopes as specified in the
         site's Work Permits. These individuals were not
         scheduled or tested at the frequency prescribed in
         applicable Work Permits. For example, four of these
         individuals were not scheduled in a timely manner, and,
         as a result, over 25 percent of required tests for uranium
         isotopes were at least three weeks delinquent. Testing
         for uranium isotopes, in this case, was required to be
         conducted monthly. While site officials told us that
         these individuals were eventually tested and that the
         testing provided adequate protection, we noted that
         testing intervals in each case exceeded scientifically
         determined test intervals contained in each Work
         Permit. The calculated intervals - which site officials
         believed to be accurate - considered factors such as
         radiation decay and bodily excretion rates.

         Twenty-three percent (7 of 30) of the employees in our
         sample at the Nevada Test Site (NTS) were tested for
         exposure to radiological hazards even though the site
         could not provide docun~entationsupporting the need
         for them to be enrolled in the bioassay program. For a
         number of individuals in our sample, NTS was unable
         to provide docunlentation that would support entry into
         the bioassay program even though it was specifically
         required by site level policies. An NTS official stated
         that "it would be a research project" to reconstruct an
         individual's radiological work history. Without such
         history, NTS cannot ensure that these and other
         individuals should have been tested at all, at the
         required frequency, or for all the potential isotopes to
         which they may have been exposed. Since the
         completion of our field work, NTS officials informed
         us that they were now taking actions to revise existing
         procedures to formalize their enrollment process.

         Certain other individuals at NTS were not tested even
         though they were assigned to the bioassay program.
         We identified two radiological workers that were not
         selected by health physicists for testing during the
         three-year period we reviewed. Another employee we

Page 3                                       Details of   ind ding
                         evaluated was not tested at the required frequency for
                         all the isotopes as prescribed by the bioassay testing
                         plan to which he or she was assigned.

Site Level Controls   These conditions occurred because site-level controls
                      designed to ensure that workers con~pliedwith bioassay
                      requirements and methods used to select individuals for
                      testing were not always effective. In addition, the database
                      systems used for tracking participants and identifying them
                      for testing were not properly maintained. Further,
                      Departmental monitoring of the bioassay program at the
                      sites we visited was insufficient.

                                         Controls and Sanctions

                      During the course of our audit work, we identified
                      weaknesses in the controls used to in~plen~ent   site-level
                      confirmatory bioassay progranls. In particular, site
                      officials stated that much of the responsibility for
                      compliance with bioassay program requirements rested on
                      the individual worker and few, if any, sanctions were
                      applied if an individual did not comply. For exanlple, at
                      ORNL, site officials indicated that there were no work
                      restrictions for not submitting required confirmatory
                      bioassay samples and we identified a number of employees
                      that routinely cancelled bioassay appointments. Of these,
                      one individual cancelled 19 consecutive bioassay
                      appointments in a seven-month period. During this time,
                      this employee was still able to perform radiological work.

                      We also noted inconsistencies in the design and conduct of
                      the bioassay program at ORNL that could lead to a
                      breakdown in the implementation of their program.
                      Specifically, an ORNL bioassay program document states
                      that fill1 participation is not required for the confirmatory
                      bioassay program, and an isolated failure by a few
                      individuals to submit samples does not constitute a
                      programmatic failure. However, this document does not
                      detail what an acceptable percentage of non-participation
                      would be and site officials would not articulate what they
                      believed to be the appropriate level of participation. Site
                      officials also told us that they could not demonstrate that at
                      least one individual from each Work Permit was being
                      tested. Without this validation, a risk exists that exposures
                      could be undetected for a particular work activity.




Page 4                                                        Details of Finding
         Finally, a 2005 Benchmarking study of the ORNL Internal
         Dosimetry Program completed by the Savannah River Site
         as part of a peer review, noted issues similar to those we
         found - that a significant fraction of routine urine bioassays
         were not being submitted. Since confirmatory bioassay at
         ORNL is used to verify that engineering and administrative
         controls were effective in the protection of personnel from
         radiological hazards, the study noted that noncompliance
         by a large fraction of the workforce makes this claim
         difficult to defend. ORNL's program docurnentation also
         acknowledges the importance of its confimiatory testing
         program by noting that a large fraction of significant
         exposures have been detected through the bioassay
         program.

                  Selection Process and Program Enrollment

         Methodologies used to select individual workers for testing
         did not always ensure that all employees received needed
         tests. At NTS, bioassay sampling for select projects was
         not based on a statistical methodology. Instead, those that
         have the greatest chance of exposure are supposed to be
         selected for testing by health physicists. While this
         approach was acceptable, site officials told us that, at times,
         they selected individuals based on their willingness to
         submit to testing rather than on their exposure time. Using
         this discretionary approach, and as illustrated by our
         findings at the site, individuals may never be selected for
         testing and the site may not be accurately reporting
         employee doses and/or exposure.

         At ETTP, a decision was made to change bioassay
         monitoring protocols for over 100 Work Pennits. This
         modified approach monitors workers on a rotating basis
         rather than the prescribed frequency calculated during the
         developnlent of the Work Permits. According to a site
         official, "the major driving force" for the change in the
         bioassay monitoring protocol was to reduce monitoring
         costs. Using this approach, ETTP realized a cost savings of
         about $7,000 per employee annually. While we recognize
         that this modified approach, if adequately justified, is an
         acceptable method, it was inconsistent with the project-by-
         project requirements established in each of the 11 7 existing
         Work Permits that were affected. ETTP stated that, based
         on a review of several years of bioassay and air sampling
         results, they believed that the same level of safety
         assurance was achieved with the new methodology. Site


Page 5                                            Details of Finding
         officials, however, could not provide analytical evidence to
         support the change and told us that they did not perform a
         con~parisonof existing requirements to the new modified
         requirements for all affected Work Permits.

         Weaknesses in how individuals were entered into or
         removed from the bioassay program also existed at several
         sites. At NTS, for example, a site official stated that entry
         into the bioassay program was an informal process based
         solely on the assignment of individuals to particular
         bioassay plans by the Health Physicist for the project rather
         than on actual Work Permit sign-ins. Since Work Permit
         sign-in records were not used to establish enrollment or
         testing requirements, individuals that have performed work
         in radiological areas might never be entered into the
         bioassay program. Site officials also told us that removal
         from the program was a manual process and that there is no
         fonnal protocol to ensure that individuals are removed
         when testing is no longer necessary.

                         Bioassay Database Systems

         Problems with the accuracy and maintenance of site-level
         bioassay databases also contributed to selection,
         monitoring, and enrollment problems. For example:

                At ETTP, Work Permit sign-ins were not always
                being uploaded in a timely manner, delaying
                scheduling of bioassay appointments - a problem
                that lead to delinquent bioassay monitoring for a
                number of individuals in our sample. Site officials
                informed us that this delay was discovered and
                corrected in September 2005 and only affected log-
                ins over a one month period. However, many of the
                delays identified in our review dated back to
                January 2005, thereby indicating that these delays
                had been ongoing for at least nine months before
                being identified.

                At ORNL, some isotopes were not added to
                individual bioassay monitoring profiles for testing.
                Site officials indicated that they were unable to
                determine whether or not the problem we
                discovered was an isolated incident.

                At NTS, a corrupted personnel data file caused an
                employee in our sample that should have been

Page 6                                          Details of Finding
                       considered for testing to be excluded from bioassay
                       monitoring. While a repair was attempted, the
                       repair failed and went undetected until it was
                       rediscovered by NTS officials while researching
                       questions for this review.

                       At both NTS and ORNL, database systems did not
                       automatically remove participants from the bioassay
                       program when monitoring was no longer necessary.

                Also, we found that a number of manual overrides of the
                bioassay database were performed at ORNL. These
                overrides were performed at the discretion of the internal
                dosimetrist who indicated, as previously noted, that they
                were periodically done to "clean up the system." ORNL's
                database does not track historical changes and, therefore,
                does not always accurately reflect an individuals'
                monitoring history, as required.

                               Reviews at the Federal Level

                Our review also revealed that Federal monitoring of site-
                level bioassay programs was inadequate. Specifically, the
                federal positions that provide management and review of
                the radiological protection programs at NTS and Y-12 had
                been vacant for over two years. During the time these
                positions were vacant, there was no evidence of formal or
                informal assessments being conducted at the Federal field
                level in this area. Once the position was filled at Y-12, a
                number of assessments were conducted in the area of
                radiological protection, which identified nine weaknesses.

Protection of   Exposure to radiation is not a guarantee of harm. However,
Workers         more exposure means more risk, and radiation exposure
                poses some risk of adverse health effect. Without an
                improvement in the control process over personnel
                monitoring, Department and contractor employees may be
                at increased risk for occupational exposures that might not
                be detected. Failure to provide an accurate total dose for
                employees may have an adverse impact on the health and
                welfare of workers. Also, if assessments at the Federal
                level are conducted more frequently, findings and
                opportunities for improvement related to radiological
                protection could be identified earlier and the risk of
                potential exposures caused by ineffective engineering or
                administrative controls could be reduced.



Page 7                                                 Details of Finding
                  Finally, the lack of accurate exposure history may hamper
                  the Department's ability to accurately assess future health
                  issues. This lack of adequate exposure evidence is
                  highlighted by the Department's experience with the
                  Energy Employees Occupational Illness Compensation
                  Program Act (EEOICPA) and potential legal issues
                  surrounding incomplete occupational exposure data from
                  past radiological work. As of the end of Fiscal Year 2006,
                  the estimated future benefits payable to eligible individuals
                  under the EEOICPA was $6.9 billion.


RECOMMENDATIONS   We recommend that the Administrator, National Nuclear
                  Security Administration; the Under Secretary for Science;
                  and the Assistant Secretary for Environmental
                  Management, require field sites under their purview to:

                      1. Ensure that restrictions are in place and develop a
                         mechanism to enforce restrictions for those that
                         have not complied with local testing regimens,
                         including the creation of penalties for Work Permit
                         violations;

                     2. Develop mechanisms at the field project level to
                        enable sites to accurately track an individual's
                        radiological work activities and periodically
                        perform a comparison of Work Permit sign-ins with
                        work assignments;

                     3. Correct existing deficiencies, verify and validate the
                        effectiveness of system controls for bioassay
                        program databases, and ensure that data entry into
                        the database system is timely and accurate; and,

                     4. Ensure that site-level bioassay requirements and/or
                        procedures are validated through Federal
                        management review activities.


MANAGEMENT        The National Nuclear Security Administration (IVNSA), as
REACTION          well as the Offices of Science (Science) and Environmental
                  Management (EM) provided comments on the report. The
                  NNSA generally agreed with the report and concurred with
                  the recommendations.

                  Science and EM indicated, in their consolidated comments,
                  that they would work with contractors to assure that local
                  testing regimens are clearly stated and are being

Page 8                                Recommendations and Comments
           accomplisl~ed;however, they did not agree with the basic
           tenet of the report and did not concur with any of the
           recommendations. Those Offices noted that Federal
           regulation does not specifically require bioassay testing,
           that such testing is optional, and that they would not
           compel employees to comply with contractor-established
           testing programs designed to help ensure the effectiveness
           of radiological controls if the employee chose not to do so.
           They based their position on the view that bioassay testing
           is a lagging indicator and that air monitoring, combined
           with radiation and contamination surveys, are the preferred
           options for verifying the effectiveness of protective
           controls.

           According to Science and EM, since bioassay monitoring is
           not exclusively required and is not the preferred method for
           verifying the effectiveness of engineering controls,
           recommendations 1 and 2 are not necessary. Management
           partially agreed with recommendation 3 and agreed to work
           with contractors to assure that the site-level procedures
           referenced in the report are clearly stated and are being
           accomplished. Science and EM believed that
           recommendation 4 was only applicable to IVIVSA.
           Management's comments are included in their entirety as
           Appendix 4.


AUDITOR    NNSA's comments and planned actions are responsive to
COMMENTS   our recommendations. We do not, however, consider the
           consolidated comments submitted by the Offices of Science
           and Environmental Management to be responsive.

           While the Office of Inspector General recognizes that
           bioassay testing for the class of individuals examined in
           this report is not specifically required by Federal
           regulation, neither are air monitoring and radiation surveys.
           Rather, contractors are required to develop a program,
           based on site-level work environments, to verify that
           workers are adequately protected. Our review focused on
           whether the confirmatory bioassay testing component of
           contractor-developed protection programs - a component
           sanctioned and funded by the Department for many years at
           considerable cost - was functioning as intended. We found
           that it was not functioning properly at the sites identified in
           the report. Each site had developed technical basis
           documentation and site-level procedures that outlined their



Page 9                                                     Comments
          bioassay programs and our recommendations were nleant
          to address issues with the implementation of these site-level
          requirements.

          We disagree with Science and EM that recommendation 4
          is only applicable to NNSA. The intent of this
          recommendation was to ensure that Federal management
          reviews over radiological protection, including bioassay
          monitoring, occur at all field sites. We believe that
          confirmatory bioassay programs at the Department's sites
          would benefit from such reviews and could help ensure that
          contractors are implementing site-developed bioassay
          programs.

          To address management's comments and to clarify that we
          evaluated the sites based on their contractor-developed
          procedures, we made revisions to the report as necessary.




Page 10                                                 Comments
Appendix I

                       OTHER MATTERS FOR CONSIDERATION


The sites we evaluated during this audit could not identify how much they spent to
implement their bioassay programs and could be paying more than necessary. The actual
costs associated with providing bioassay services could not be determined and the sites'
methods for collecting and analyzing costs of the bioassay program were ineffective.

Each site had developed a unique method for tracking the costs of the bioassay analyses that,
in many cases, did not capture the total costs associated with monitoring. Each of the three
sites that used in-house programs could only provide allocated budget amounts rather than
cost per analysis figures. Our examination revealed that the cost elements considered in the
budget allocations differed from site to site and we were unable to determine what was
included in each of the elements. For example, the Y-12 National Security Complex budget
included labor, subcontracts, organizational burden, and supplies, while the Savannah River
Site included only labor, non-labor, and services purchased from other site organizations.

For the two sites that used contracted services, substantially different rates for analyses of the
same isotope were to be paid. For example, in 2005, the Nevada Test Site's price for a 45-
day turnaround was $140 per analysis for Americium, whereas, the East Tennessee
Technology Park's price, on average, was approximately $320 per analysis. However,
neither of these prices reflected the full cost of testing. For example, officials at both sites
indicated that additional costs to collect and deliver the sanlples to the contract laboratory
had been incurred, however, they were not included in the cost of providing bioassay
services.

The Department of Energy (Department) could not ensure it was administering its bioassay
program in the most cost-effective manner because it had not required sites to perform a
make-or-buy study, nor had it established a listing of cost elements that needed to be
considered when conducting such studies. For example, only one of the sites could provide a
documented, comprehensive cost analysis that could be used to determine the most
economical method of providing bioassay services. The other sites either had not con~pleted
a cost analysis or had conducted very limited reviews based on the support provided.

Similar issues with costs were identified in In-Vitro Bioussu~vServices rzt Depurtrneizt of
Eizergy Fcrcilities, (DOEIIG-0458, February 2000). The report found that bioassay analyses
had not been obtained at the lowest prices available and recommended that the Department
establish a cost schedule - a standard set of cost elements - to be used in determining the
 no st efficient way of obtaining bioassay services and also assure that sites maintain
sufficient cost records to evaluate program cost against the cost schedule. While the
Department did develop a standard cost schedule in response to our recommendation, it was
only applied to make-or-buy analyses and, as we noted, the majority of the sites we reviewed
had not conducted such analyses. It is unclear whether the Department fully addressed the
recon~mendationto require site contractors to maintain sufficient cost records. However, we
believe that had the recommended actions been taken, managers would have a better idea
how they compared to other sites and benchmarks could have been established.



Page 11                                                Other Matters for Consideration
Appendix I(continued)

SUGGESTION FOR IMPROVEMENT

The Department should revisit the recommendations made in our previous report and
implement standard cost elements that would enable the sites to compare and analyze the cost
of bioassay services and would perniit the preparation of comprehensive cost-benefit
analyses. All sites that have the need for bioassay services should be required to analyze the
costs of bioassay services using standard cost elements and maintain sufficient cost records.




Page 12                                              Other Matters for Consideration
Appendix 2


OBJECTIVE    To determine whether contractor-developed confirmatory
             bioassay programs were being administered in an effective
             manner.



SCOPE        We conducted the audit from January 2006 to May 2007 at
             Department's Headquarters in Germantown, Maryland; the
             Savannah River Site (SRS) in Aiken, South Carolina; the
             Nevada Test Site (NTS) in Nye County, Nevada; the East
             Tennessee Technology Park (ETTP), the Y-12 National
             Security Complex (Y-12), and Oak Ridge National Laboratory
             (ORNL) in Oak Ridge, Tennessee.

             In addition, we conducted audit work at the Tonopah Test
             Range in Tonopah, Nevada, and the Yucca Mountain Project in
             Nye County, Nevada. However, neither of these sites have
             routine bioassay programs, therefore, we did not include any of
             the inforn~ationfrom these sites in the report.


             To accomplish the audit objective, we:

                    Selected a discovery sample of employees with routine
                    access to radiological areas at selected sites;

                    Analyzed bioassay requirements, appointments and test
                    results for selected en~ployees;

                a   Reviewed applicable Federal regulations, Department
                    Orders, and other guidance related to bioassay
                    monitoring;

                    Obtained and reviewed internal dosimetry technical
                    basis documents and site-level policies and procedures
                    related to bioassay monitori~lgat selected sites;

                    Obtained and reviewed Radiation Protection Programs
                    at selected sites;

                    Obtained and reviewed Noncompliance Tracking
                    System reports and Radiological AwarenessIEvent
                    Reports for selected sites;




Page 13                         Objective, Scope, and Methodology
Appendix 2

                    Held discussions with officials from SRS, NTS, ETTP,
                    Y-12, and ORNL regarding the Department's bioassay
                    monitoring program; and,
                    Held discussions with Headquarters officials regarding
                    site bioassay monitoring programs and programmatic
                    responsibilities.

             The audit was performed in accordance with generally
             accepted Government auditing standards for perfomlance
             audits and included tests of internal controls and compliance
             with laws and regulations to the extent necessary to satisfy the
             audit objective. Accordingly, the audit included reviews of
             Department and regulatory policies, procedures, and
             performance measures related to the Department's Bioassay
             Program. We assessed performance measures in accordance
             with the Government Performunee and Results Act of 1993 and
             concluded that the Department had not established
             performance measures related to bioassay monitoring
             programs. Because our review was limited, it would not
             necessarily have disclosed all internal control deficiencies that
             may have existed at the time of our audit. We obtained and
             reviewed the computer processed data made available to us in
             order to achieve our audit objective. We validated the
             reliability of such data, to the extent necessary to satisfy our
             audit objective, by tracing it to source documents or other
             supporting information. Also, since bioassay databases formed
             the basis of most of the testing, we evaluated the input controls
             over these systems.

             Management waived an exit conference.




Page 14                          Objective, Scope, and Methodology
Appendix 3

                                  PRIOR REPORTS


Office of Inspector General Reports

      In- Vitro Bioassay Services at Departnzent of Enei-gy Facilities (DOEIIG-0458,
      February 2000). The report found that the Department of Energy's (Department)
      contractors did not obtain bioassay analyses at the lowest prices available.
      Although discounts were available under Department-wide subcontracts, two of
      the Department's contractors issued their own subcontracts for bioassay analyses
      with rates that were higher than the Department-wide rates. Also, three
      contractors paid substantially different rates for similar or identical analyses
      performed by the same subcontractor. These conditions occurred because the
      Department did not require contractors to use the Department-wide subcontracts
      and consolidate requirements into a single, cost-effective basic ordering
      agreement. As a result, the Department incurred unnecessary costs of about
      $495,000 during FYs 1998 and 1999. The report also noted that the audit team
      could not determine if the Department obtained bioassay analyses at the lowest
      prices available for 74 percent of the analyses reviewed because the three in-
      house laboratories were not required to capture the actual cost of specific analyses
      performed.

      Audit of the Department of Energy's Conzmercial Laboi-atory Quality Assurance
      Evaluation Program (DOEIIG-0374, June 1995). The audit found that the
      Department's method of perfonning quality assurance evaluations of commercial
      analytical laboratories was not cost effective or efficient. Contractors at many of
      the Department's sites conducted multiple evaluations of the same conlmercial
      laboratory. In addition, methods used to perfom1 evaluations and report results
      varied among contractors. Finally, quality assurance evaluation results were not
      communicated to other contractors. These problems occurred because the
      Department's quality assurance policy guidance did not require development and
      implementation of a coordinated comn~erciallaboratory quality assurance
      program. The Department did not require contractors to coordinate efforts,
      develop unifonn standards and methods, or to conlmunicate the results of their
      evaluations to other contractors.




Page 15                                                                  Prior Reports
Appendix 4




                                          Department of Energy
                                            Off ice of Science
                                          Washington, DC 20585
                                               July 70, 2007




          MEMORANDUM FOR RICKEY R. IIASS
                         ASSISTANT INSPECTOR GENFRAL
                          FOR FIKANCIAL, TECHNOLOGY AND
                          CORPORATE AUDITS
                         OFFICE OF INSPECTOR GENERAL

          FIIOM

                                   OFFICE O                      G


                                                           I
          SUBJECT:                  Response to Inspector General's Draft Repofi, "Confirmatory
                                    Bioassay Testing at Selected Sites"


          Thank you for the opportunity to review and comment on the draft report, "Confirmatory
          Bioassay Testing at Selected Sites." The following is a consolidated response developed
          bctwcen the Office of Science and the Office of Environmental Management.

          Bioassay programs for DOE contractors include testing that is mandatory, in compliance
          with DOE requirements, as well as testing that is discretionary and not required by DOE.
          The DOE requires mandatory bioassays for radiological workers who are likely to receive
          a committed effective dose equivalent of 100 millirem per year. This DOE requirement
          is found in 10 CFR 835.402. For perspective, there are only a small number of
          radiological workers who fall into this category, where bioassays are required by DOE.

          In addition to this mandatory bioassay testing requirement, DOE contractors are also
          required to verify the effectiveness of engineering and process controls for containing
          radioactive materials and reducing radiation exposures. This requirement is found in
          10 CFR 835.40I(a). To meet this requirement, contractors have the option of performing
          air monitoring in the workplace, radiation and contamination SUNeyS, and optional
          bioassays for additional employees who are not expected to receive a committed effective
          dose equivalent of 100 millirem per year. Of those options, additional employee
          bioassays arc not considered the first choice because they are a lagging indicator, and
          such bioassays are not required by DOE.

          The vast majority of employees who submit bioassay samples fall into this latter category
          of workers for whom testing is optional and discretionary, and not required by DOE. For
          the employees who are required to have bioassays, DOE enforces a very strict standard of
          care. For employees who are not required to have bioassays, DOE does not have any




Page 16                                                                Management Comments
Appendix 4 (continued)




          reason to require that they continue with the testing if they choose not to, especially in
          light of the fact that the preferred alternative for verifying the effectiveness of
          engineering controls is to perform air monitoring in the workplace along with other
          radiation and contamination surveys.

          Management Response:

          DOE agrees that it is important to enforce a very strict standard of care for radiological
          workers who are monitored because they are expected to receive a committed effective
          dose equivalent of 100 millirem per year, and DOE expects its contractors to rigorously
          and proactively ensure that suitable restrictions are in place and enforced.

          The issues identified in this report relate to monitoring that is discretionary and not
          related to compliance with the DOE requirements for bioassay programs, as specified in
           10 CFR 835.401 (a) and 10 CFR 835.402. DOE will work with the contractors to assure
          that the discretionary procedures in the "local testing regimens" referenced in the report
          are clearly stated in site procedures and are being accomplished.

          Attached are the DOE responses to each audit recommendation. If you have any
          questions related to this response, please contact Barry Parks at 301 -903-9649 or
          barry .parks@science.doe.gov.

          Attachment


          cc: Joni Boone, EM-43
              Richard Speidel, NA-66
              Merley Lewis, CF- 1.2
              Robert Goldsmith, EM-62
              Robyne Johnston, HS- 1.23




Page 17                                                                    Management Comments
Appendix 4 (continued)




                                                                                  Attachment

  SC and EM Management Response to Recommendations:

  Recommendation 1: Ensure that restrictions are in place and develop a mechanism to
  enforce restrictions for those that have not complied with local testing regimens,
  including the creation of penalties for Work Permit violations.

  Management Response: DOE agrees that it is important to enforce a very strict
  standard of care for radiological workers who are monitored because they are expected to
  receive a committed effective dose equivalent of 100 millirem per year, and DOE expects
  its contractors to rigorously and proactively ensure that suitable restrictions are in place
  and enforced. However, DOE non-concurs with this recommendation, because it is not
  related to compliance with the DOE requirements for bioassay programs, as specified in
  10 CFR 835.401 (a) and 10 CFR 835.402. The procedures in the "local testing regimens"
  referenced in the report are strictly discretionary on the part of the contractor and are not
  required by DOE. The ability for DOE to enforce compliance with either statutory or
  contractual requirements is already in place through the use of civil penalties andlor
  contractual fee reductions. Any Work Permit violations which result in noncompliance
  with DOE requirements would be managed with these existing enforcement mechanisms.
  Because there is no issue with meeting DOE requirements, no corrective actions will be
  taken.

  Recommendation 2: Develop mechanisms at the field project level to enable sites to
  accurately track an individual's radiological work activities and periodically perform a
  comparison of Work Permit sign-ins with work assignments.

  Management Response: DOE is committed to ensuring that accurate records are kept
  for documenting occupational doses, and contractors are expected to comply with DOE
  requirements as set out in their Radiological Protection Program. However, DOE non-
  concurs with this recommendation, because there are a number of acceptable mechanisms
  for accomplishing this goal. As long as the contractors can demonstrate compliance with
  the DOE requirements for bioassay programs in 10 CFR 835.401 (a) and I0 CFR 835.402,
  there is no benefit for specifying the exact mechanisms for doing so. No corrective
  actions will be taken for this recommendation.

  Recommendation 3: Correct existing deficiencies, verify and validate the effectiveness
  of system controls for bioassay program databases, and ensure that data entry into the
  database system is timely and accurate.

  Management Response: DOE expects its contractors to take proactive measures to
  ensure that databases and other recordkeeping and scheduling tools maintain accurate
  dosimetry records, for those workers being monitored as required by 10 CFR 835.40I(a)
  and 10 CFR 835.402. DOE partially concurs with this recommendation, on the basis that
  all of the database issues identified in the report are in regard to bioassays that are strictly
  discretionary on the part of the contractor and are not required by DOE.




Page 18                                                                      Management Comments
Appendix 4 (continued)




   Action Plan: The issues identified in this report relate to monitoring that is discretionary
   and not related to compliance with the DOE requirements for bioassay programs, as
   s~ecifiedin 10 CFR 835.401(a) and 10 CFR 835.402. DOE will work with the
                                >   ,


   contractors to assure that the discretionary procedures in the "local testing regimens"
   referenced in the report are clearly stated in site procedures and are being accomplished.

   Estimated Completion Date:           DOE will complete this action plan within one year from
   issuance of the report.

   Recommendation 4: Ensure that site-level bioassay requirements and/or procedures are
   validated through Federal management review activities.

   Management Response: This recommendation was specific to NNSA sites and
   NNSA's response is under a separate cover. No corrective action will be taken for EM
   and SC sitcs.




Page 19                                                                Management Comments
Appendix 4 (continued)




                                   Department of Energy
                            National Nuclear Securlty Admlnldration
                                     Washington, DC 20585




           MEMORANDUMMFOR                Rickey R. Hass
                                         Assistant Inspector (ieneral


           FROM:
                                         Director
                                         Policy and Internal Controls Management

           SUBJECT:                      Revised Comments to Draft Confirmatory
                                         Bioassay Testing R~port;AO6PT015/2006-
                                         020 16


           The National Nuclear Security Administration (N\ISA) appreciates the
           opporhmity to provide revised comments to the h.spector General's (IG)
           drafl report, "Confirmatory Bioassay Testing at Sclected Sites." NNSA's
           original comments stated that we did not agree wrth the premise of this
           report a s we understood it. After discussions with several of your
           auditors, NNSA is revising its comments to the draf? report.

           NNSA appreciates the IG commenting on the facl that the Y-12 complex
           is testing individuals in accordance with its site-1c:vel procedures. These
           site-level procedures are above and beyond what is required in the Code of
           Federal Regulations for bioassay programs. l'herein is the premise for this
           report as we now understand it, to determine wheher the site specific
           confirmatory bioassay programs are being administered in an effective
           manner.

            NNSA generally agrees with the report and its cc:~rresponding
           recommendations. NNSA will further evaluate what its next steps should
           be to implement corrective measures andlor monitor efficient operations.
           W c will provide quarterly status reports, as necessary, until such time as
           the IG and NNSA agree that corrective actions u e complete.

           Should you have any questions about this response, please let me know

           cc:     Frank Russo, Senior Advisor, Environment, Safety and Health
                   Karen Boardman, Director, Service Ccntr:r
                   David Boyd, Senior Procwement Executive




Page 20                                                                 Management comments
                                                              1G Report No. DOEIIG-0773

                        CUSTOMER RESPONSE FORM

The Office of Inspeclor General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1, What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report'?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What add~tionalactions could the Office of Inspector Gcneral have taken on the
   issues discussed in this report which would have been helpful?

5 . Please i n c l ~ ~ dyour
                         e name and telephone number so that we may contact you should
    we have any quest~onsabout your comments.


Name                                           Date

Telephone                                      Organization                            -




When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                            Office of Inspector General (IG- I )
                                  Department of Energy
                                 Washington, DC 20585

                               ATTN: Customer Relations

I f you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of lnspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.energy.~ov

  Your comments would be appreciated and can be provided on the Customer Response Form.
